Audit Report




OIG-14-039
RECOVERY ACT: Audit of MSL Development LLC Payments
Under 1603 Program
June 18, 2014




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report.................................................................................................. 1

    Results in Brief ............................................................................................. 1

    Background ................................................................................................. 3

    Audit Results ............................................................................................... 5

    Recommendations…………………………………………………………………………… 10

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ...................................... 12
    Appendix     2:      MSL Development LLC’s Solar Properties ............................... 13
    Appendix     3:      Schedule of Questioned Costs ................................................ 14
    Appendix     4:      Management Response .......................................................... 15
    Appendix     5:      Major Contributors to This Report ............................................ 17
    Appendix     6:      Report Distribution ................................................................. 18




Abbreviations


    NREL                 National Renewable Energy Laboratory
    OIG                  Office of Inspector General
    Treas. Reg.          Treasury Regulation




                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)               Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                Audit
OIG
The Department of the Treasury
                                                                                                Report
Office of Inspector General




                         June 18, 2014

                         Richard L. Gregg
                         Fiscal Assistant Secretary

                         As part of our ongoing oversight of the Department of the
                         Treasury’s (Treasury) 1603 Program – Payments for Specified
                         Energy Property in Lieu of Tax Credits (1603 Program)1 authorized
                         by the American Recovery and Reinvestment Act of 2009
                         (Recovery Act),2 we are conducting audits of selected award
                         recipients. In this regard, we have audited awards made to MSL
                         Development, LLC (MSL) for six solar energy properties located in
                         southern California. MSL submitted separate claims for payments in
                         lieu of tax credits for these six solar properties and was awarded a
                         total of $53,550 by Treasury in July and August 2010. Our audit
                         objectives were to assess the eligibility and accuracy of the awards
                         by determining whether (1) the property existed, (2) the property
                         was placed into service during the eligible timeframe, and (3) the
                         award amount was appropriate. Appendix 1 provides a detailed
                         description of our audit objectives, scope, and methodology.

Results in Brief
                         We found that awards made to MSL were not appropriate for all its
                         subject properties. Specifically, five subject properties were
                         ineligible for award under Treasury’s 1603 Program because MSL
                         did not meet the ownership requirement for specified energy
                         property in accordance with Treasury’s 1603 Program guidance3
                         and Treasury Regulation (Treas. Reg.) §1.263A-1. Although we

1
  Treasury’s Office of the Fiscal Assistant Secretary administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under section 1603 of the Recovery Act, Treasury makes
grants (payments) to eligible persons who place in service specified energy property and apply for such payments.
The purpose of the payment is to reimburse eligible applicants for a portion of the expense of such property and is
made in lieu of tax credits that could have been potentially claimed by the awardees.
3
  “Payments for Specified Energy Property in Lieu of Tax Credits under the American Recovery and Reinvestment
Act of 2009 Program Guidance,” (July 2009/Revised March 2010/ Revised April 2011)



                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)               Page 1
                          verified that the six subject properties described by MSL in its
                          1603 Program applications existed and were placed in service
                          within the eligible timeframe, MSL only owned one award-eligible
                          property. Furthermore, for that property, we found that the claimed
                          cost basis contained ineligible and unsupported costs. In all, we
                          determined that the reported cost bases of $179,495 for the six
                          subject properties discussed in this report included $149,692 of
                          ineligible costs. As a result, we are questioning $44,908 of
                          Treasury’s1603 Program awards to MSL (30 percent of
                          $149,692).

                          Subsequent to our visit to MSL, we followed up on MSL’s annual
                          reporting to Treasury and found that it was delinquent in
                          submitting the “Annual Performance Report and Certification” for
                          every one of its subject properties. It should be noted that in
                          accordance with Treasury’s terms and conditions of the award,
                          MSL must annually certify for each subject property that (1) the
                          property has not been sold, transferred, or disposed of to a
                          disqualified person, and (2) the property continues to qualify as a
                          specified energy property. During our review, we found that MSL
                          had been awarded $89,354 for 11 other solar properties and was
                          also delinquent in submitting required annual reports for them.

                          At the time of our review, Treasury had already initiated recapture
                          procedures4 for the six subject properties of this report as well as
                          the other 11 solar properties for which MSL received awards. The
                          recapture amount associated with its eligible subject property and
                          the 11 other solar properties (that we did not review) is $59,644.
                          Although Treasury initiated recapture procedures for that amount,
                          primarily related to MSL’s failure to submit annual reports and
                          certifications for its awarded energy properties, we continue to
                          question an additional $44,908 of Treasury’s1603 Program awards
                          to MSL associated with the six subject properties discussed in this
                          report. It should also be noted that we have serious concerns over
                          the eligibility of the 11 other solar properties based on the results
                          of this audit.



4
 Under Section 1603 Program's terms and conditions payment recipients are required to submit an annual
performance report and certification for each subject property. Failure to comply with this requirement may result in
a disallowance of all or a part of the amount awarded and any amount disallowed must be returned to the Treasury.



                          Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)               Page 2
                         We recommend that your office ensure that MSL reimburse
                         Treasury $44,908 for the excessive 1603 Program payments it
                         received for the six subject properties in addition to the recapture
                         of $59,644. Based on the serious concerns discussed in this
                         report, we are also recommending that your office review MSL’s
                         eligibility for receiving $89,354 for the other 11 MSL properties
                         and determine whether 1603 Program payments were appropriate.

                         As part of our reporting process over 1603 Program awardees, we
                         requested MSL management’s comments on this draft report.
                         However, management declined our request.

                         In a written response, Treasury management concurred with our
                         recommendations stating that it will continue its efforts already in
                         progress to recapture amounts due from MSL based on its annual
                         reporting deficiencies. The response also noted that Treasury
                         management reviewed the 11 additional awards made to MSL and
                         determined that four of them should be recouped based on
                         ineligibility. For all three recommendations, management will
                         recalculate the total amount it is seeking from MSL to factor in the
                         report findings related to the six subject properties that were either
                         ineligible or overpaid and the value of the four awards that
                         management found ineligible. We have summarized management’s
                         response in the recommendations section of this report.
                         Management’ response is provided in appendix 4.


Background
                         Eligibility Under the 1603 Program

                         Applicants are eligible for a 1603 Program award if specified
                         energy properties are placed in service during calendar years 2009,
                         2010, or 2011,5 and the amount awarded is in accordance with
                         applicable provisions of the Internal Revenue Code for determining
                         the appropriate cost basis. Under the 1603 Program, applicants
                         submit an application to Treasury that reports the total eligible cost

5
 Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of 2010”: Pub. L.
111-312, 124 Stat.3312 (December 17, 2010), extended Treasury’s 1603 Program for 1 year. To be eligible, a
property must be placed in service in 2009, 2010, or 2011 or placed in service after 2011 but only if construction
of the property began during 2009, 2010 or 2011 and the credit termination date of the property has not expired.
The application deadline was extended to September 30, 2012.



                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)              Page 3
                          basis of the specified energy property placed in service.6 If
                          approved, award amounts are based on a percent of that eligible
                          cost basis. For the type of property claimed by MSL, the
                          percentage of cost basis eligible for award is 30 percent. According
                          to Treasury’s 1603 Program guidance, the cost basis of the subject
                          property is ascertained in accordance with the general rules for
                          determining the cost basis of property for federal income tax
                          purposes. Specifically, for this type of subject property, applicants
                          follow the capitalization procedures found in Treasury Regulation
                          (Treas. Reg.) §1.263A-1, “Uniform Capitalization of Costs.”7

                          Treasury requires applicants to certify annually for a period of 5
                          years following the property’s in-service date that the claimed
                          property (1) has not been sold, transferred, or disposed of to a
                          disqualified person and (2) continues to qualify as a specified
                          energy property. Otherwise, the 1603 Program payment will be
                          subject to full or prorated recapture.

                          MSL Development LLC

                          Established in 2009 in Rosemead, California, MSL purchased
                          turnkey solar systems (i.e. panels, inverters, wires) to lease and/or
                          sell energy through power purchase agreements. MSL was
                          awarded 1603 Program payments for the following six subject
                          properties:

                                     Property Name                              Property Description
                             Property A                             5.40 kilowatt solar system, expected
                             Temple City, California                annual electricity generation of 8.2
                                                                    megawatt hours

                             Property B                             7.22 kilowatt solar system, expected
                             Covina, California                     annual electricity generation of 10.2
                                                                    megawatt hours


6
  Treasury 1603 Program applications are reviewed by the National Renewable Energy Laboratory (NREL) which is a
national laboratory of the Department of Energy. Under an interagency agreement between Treasury and the
Department of Energy, NREL performs the technical review of 1603 Program applications and advises Treasury on
award decisions.
7
  Treas. Reg. §1.263A-1(a)(3)(ii), Property produced: “Taxpayers that produce real property and tangible personal
property (producers) must capitalize all the direct costs of producing the property and the property's properly
allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this section), regardless of whether the
property is sold or used in the taxpayer's trade or business.”



                          Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)                  Page 4
                        Property Name                        Property Description
                  Property C                       3.04 kilowatt solar system, expected
                  Alhambra, California             annual electricity generation of 4.5
                                                   megawatt hours

                  Property D                       5.28 kilowatt solar system, expected
                  Rosemead, California             annual electricity generation of 7.7
                                                   megawatt hours

                  Property E                       6.08 kilowatt solar system, expected
                  La Habra Heights, California     annual electricity generation of 8.5
                                                   megawatt hours

                  Property F                       6.80 kilowatt solar system, expected
                  Hacienda Heights, California     annual electricity generation of 9.8
                                                   megawatt hours


                MSL structured 5-year lease agreements with the homeowners of
                properties A through E for the use of the solar system and entered
                into a power purchase agreement with Property F’s homeowner
                which requires the homeowner to pay MSL for the electric power
                generated by the solar system over a 15-year term.

Audit Results
                We found that 5 of 6 MSL subject properties which received
                awards under Treasury’s 1603 Program were, in fact, ineligible to
                receive such awards. Although we verified that all subject
                properties existed and were placed in service within the eligible
                timeframe, MSL did not own properties A through E (see chart
                below) as required by Treasury’s 1603 Program guidance and
                Treas. Reg. §1.263A-1. Furthermore, we identified ineligible and
                unsupported costs in the cost basis of the subject property owned
                by MSL, Property F. As a result, we determined that MSL’s
                reported cost bases of $178,495 for the six subject properties
                included $149,692 for costs that did not comply with Treasury’s
                1603 Program Guidance and Treas. Reg. §1.263A-1. See
                Questioned Costs in MSL Development LLC’s Cost Basis schedule
                below.




                Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 5
                             Questioned Costs in MSL Development LLC’s Cost Basis
                                                   Reported  Questioned  Questioned
                             Property             Cost Basis Cost Basis Award Amount Note
                         Property A                  $25,169    $25,169        $7,551  1
                         Property B                    37,300           37,300              11,190        1
                         Property C                    19,399           19,399                5,820       1
                         Property D                    32,679           32,679                9,804       1
                         Property E                    33,216           33,216                9,965       1
                         Property F                    30,732             1,929                 578       2
                         Totals                     $178,495         $149,692             $44,908

                         We determined that the solar systems identified in the above
                         schedule were not owned by MSL resulting in five improper awards
                         (Note1). We also identified ineligible and unsupported costs in
                         Property F’s cost basis (Note 2).

                                  Note 1. Properties Under Conditional Sale Contracts
                                  ($147,763 questioned cost bases)

                                  MSL structured a 5-year lease agreement with homeowners
                                  that contained a bargain purchase option allowing the
                                  homeowner the ability to purchase the solar system for $1
                                  at the end of the 5-year lease term. According to Revenue
                                  Ruling 55-540,8 a lease agreement with an option to acquire
                                  the subject property at a price that is nominal in relation to
                                  the value of the property at the time when the option may
                                  be exercised could be considered a conditional sales contract
                                  not a lease.

                                  In the case of 5 of MSL’s 6 subject properties, we
                                  determined that the value of each subject property would be
                                  more than $1 at the end of the 5-year lease term given the
                                  subject property’s manufacture warranty and estimated
                                  useful life. Generally, MSL’s turnkey solar systems (i.e.

8
 Revenue Ruling 55-540, 4. “Determination Whether an Agreement Is a Lease or a Conditional Sales Contract, .01.
the “treatment of a transaction for tax purposes as a purchase and sale rather than as a lease or rental agreement
may in general be said to exist if, for example, (e)... the property may be acquired under a purchase option at a
price which is nominal in relation to the value of the property at the time when the option may be exercised, as
determined at the time of entering into the original agreement, or which is a relatively small amount when
compared with the total payments which are required to be made.”



                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)             Page 6
                                 panels, inverters, wires) have a 10-year manufacturer’s
                                 warranty. Furthermore, the expected useful life of solar
                                 panels is 25 years and 10 years for inverters. At the end of
                                 the lease term, the homeowner has the option to renew the
                                 lease to purchase solar power, exercise the bargain purchase
                                 option, or request the system to be removed at no cost. MSL
                                 officials told us that the solar system could be removed and
                                 reinstalled on another home, but the official admitted that he
                                 did not foresee any reinstallation due to the system’s bargain
                                 purchase price of $1.

                                 We also found that MSL structured a different agreement for
                                 a similar solar system, Property F, which is under a 15-year
                                 power purchase agreement9 with an option to purchase the
                                 solar equipment at the end of the term for $39,200. Under a
                                 power purchase agreement the homeowner purchases the
                                 solar electricity produced and not the equipment. At the end
                                 of the agreement term, the homeowner has the option to
                                 purchase the 15-year old solar system for $39,200, which is
                                 more than Property F’s cost basis of $30,732.

                                 We concluded that MSL’s lease agreements for the five
                                 subject properties A through E to be conditional sales
                                 contracts. As conditional sales contracts, the subject
                                 properties are considered to be purchased by the
                                 homeowners rather than leased since a bargain purchase
                                 option was part of the original lease agreement. Thus, the
                                 homeowners are considered the owners of the five subject
                                 properties and not MSL. According to Treasury’s 1603
                                 Program guidance, an applicant must be the owner or lessee
                                 of the property to be eligible to receive an award. We
                                 determined that MSL was not the proper owner and
                                 therefore not an eligible applicant. As a result, we are
                                 questioning the entire cost bases of $147,763 for the five
                                 subject properties A through E and the amount awarded of
                                 $44,330 (30 percent of $147,763).



9
 “A Solar Power Purchase Agreement is a financial arrangement in which a third-party developer owns, operates,
and maintains the photovoltaic (PV) system, and a host customer agrees to site the system on its roof or elsewhere
on its property and purchases the system’s electric output from the solar services provider for a predetermined
period.” http://www.epa.gov/greenpower/buygp/solarpower.htm



                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)             Page 7
       Note 2. Ineligible and Unsupported Costs
       ($1,929 questioned cost basis)

       We reviewed MSL’s lease agreement with the homeowner of
       Property F’s solar system and determined that the 15-year
       power purchase agreement did not affect MSL’s ownership.
       However, we found that the cost basis for this property
       included ineligible and unsupported costs as detailed below:

           Ineligible Sales/Commission Costs ($2,584)

           We identified $2,584 of sales/commission costs in the
           subject property’s cost basis that were ineligible.

           In accordance with Treasury’s 1603 Program guidance,
           costs for sales/commission are ineligible and should not
           be included in the subject property’s cost basis.

           Unsupported Costs ($9,822)

           We identified $9,822 of costs in the subject property’s
           cost basis that MSL could not provide documentation for
           as follows:

                  Stamped Structural and other Design Fee ($425)
                  Administrative/ Miscellaneous Cost ($600)
                  Installation Cost and Overhead ($8,797)

           In accordance with the 1603 Program guidance, the
           applicant must maintain project, financial, and accounting
           records sufficient to demonstrate that 1603 Program
           funds were properly obtained.

       We also identified an error in MSL’s calculation of Property
       F’s cost basis. That is, MSL received a federally taxable local
       incentive in the amount of $10,477 for the subject property
       but erroneously deducted it from the subject property’s cost




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 8
                                  basis. MSL was not required to reduce the cost basis for
                                  incentives that are federally taxable.10

                                  We adjusted the total unsupported costs of $12,405 by the
                                  federally taxable local incentive of $10,477, and question
                                  the adjusted unsupported costs of $1,929. As a result, we
                                  question the award amount of $578 (30 percent of $1,929).

                         Subsequent to our visit to MSL, we followed up on its annual
                         reporting requirement to Treasury and noted that MSL was
                         delinquent in submitting the “Annual Performance Report and
                         Certification” for each of its subject properties. In the terms and
                         conditions of the award Treasury required that MSL certify for each
                         subject property that (1) the property has not been sold,
                         transferred, or disposed of to a disqualified person, and (2) the
                         property continues to qualify as a specified energy property. It was
                         during our review of the annual reporting requirement that we
                         found that MSL had been awarded $89,354 for 11 other solar
                         properties and was delinquent in submitting required annual reports
                         for them as well. In some instances, we identified delinquencies
                         that exceeded 300 days. It should be noted that at the time of our
                         review Treasury had already initiated recapture procedures for the
                         six subject properties of this report as well as the other 11 solar
                         properties noted. We determined $59,644 of recapture amounts
                         associated with Property F’s adjusted cost basis and the 11 other
                         properties. Appendix 2 provides more detail of MSL’s solar
                         properties and related delinquencies.

                         Although Treasury initiated recapture procedures related to MSL’s
                         failure to submit annual reports and certifications for its awarded
                         energy properties, we question an additional $44,908 of
                         Treasury’s1603 Program awards to MSL associated with the six
                         subject properties that we reviewed. We also have concerns over
                         the eligibility of the 11 other solar properties based on the results
                         of this audit. At the time of our review no funds had been collected
                         from MSL.


10
  Treasury’s Reviewer’s Handbook, Payments for Specified Energy Property in Lieu of Tax Credits under the
American Recovery and Reinvestment Act of 2009. “Other federal grants, states grants, or rebates do not reduce
the basis on which the 1603 payment is calculated if they are includible in the taxable income of the recipient. If
the grant or rebate is not includable in the income of the recipient, the basis must be reduced by the amount of the
grant or rebate.”



                         Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)                Page 9
Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

           1. Ensure that MSL Development LLC reimburse Treasury $44,908
              for the excessive 1603 Program payment received for the six
              subject properties.

              Management Response

              Management concurred with our recommendation stating that it
              will continue its efforts to recapture funds owed by MSL due to
              its annual reporting deficiencies. Management noted that it will
              recalculate the total amount due in accordance with the report’s
              findings that the six subject properties reviewed were either
              ineligible or overpaid.

              OIG Comment

              Management’s response meets the intent of our
              recommendation.

           2. Ensure MSL Development LLC reimburse Treasury the recapture
              amount of $59,644 and any associated fees.

              Management Response

              Management concurred with our recommendation, and
              consistent with its response to our first recommendation, stated
              that it will continue its efforts to recapture funds due from MSL
              to include recalculating the total amount due based on the
              findings of this report.

              OIG Comment

              Management’s response meets the intent of our
              recommendation.

           3. Review MSL Development LLC’s eligibility for receiving
              $89,354 for the 11 other properties and determine whether


           Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 10
      1603 Program payments were appropriate, and based on that
      determination take necessary action.

      Management Response

      Management concurred with our recommendation stating that it
      has undertaken a review of the 11 additional Section 1603
      awards and determined that four of those awards should be
      recouped based on ineligibility. Management noted that it will
      factor the value of these awards into its recalculation of the
      total amount due from MSL.

      OIG Comment

      Management’s response meets the intent of our
      recommendation.




                               ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audits, at (202) 927-5784. Major contributors to this
report are provided in appendix 5.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 11
Appendix 1
Objectives, Scope, and Methodology




We initiated an audit of MSL Development, LLC (MSL) solar energy
properties as part of our ongoing oversight of the Department of
the Treasury’s (Treasury) 1603 Program – Payments for Specified
Energy Property in Lieu of Tax Credits (1603 Program). The
objectives of the audit were to assess the eligibility and accuracy
of awards made to MSL for six of its subject properties under the
1603 Program by determining whether (1) the properties existed,
(2) the properties were placed into service during the eligible
timeframe, and (3) the award amounts were appropriate.

In performing our work, we selected MSL as part of a risk-based
sample of solar energy properties subject to recipient audits. Solar
properties posed high risk because Treasury did not require
certification by an independent public accountant or supporting
documentation for properties falling below Treasury’s $500,000
threshold. We visited MSL’s headquarters in Rosemead, California,
and 5 of the 6 subject properties; interviewed key personnel of
MSL, and MSL’s certified public accountant. We also reviewed the
application and related documents reviewed by the Department of
Energy’s National Renewable Energy Laboratory; reviewed
documentation used to support the property’s existence, its placed
in service date, and the costs claimed by MSL. Subsequent to our
site visit to MSL, we followed up on MSL’s required annual
performance reporting and certification to Treasury. We conducted
our work between April 2010 and February 2014.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 12
Appendix 2
MSL Development LLC’s Solar Properties




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 13
Appendix 3
Schedule of Questioned Costs




A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds used
to match Federal funds; (2) where the cost, at the time of the
audit, is not supported by adequate documentation; or (3) where
the cost incurred appear unreasonable and do not reflect the
actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                            Questioned Costs

Recommendation 1                                 $44,908

The questioned costs relate to excess funds that Treasury awarded
to MSL Development LLC (MSL) under the 1603 Program. The
amount questioned is the 30 percent of the excess costs included
in the cost bases of MSL’s six subject properties. As discussed in
the audit report, the questioned costs in the cost bases of MSL’s
subject properties consist of two components: (1) $147,763
associated with the five subject properties determined to be
ineligible under conditional sales contracts and (2) $1,929
associated with ineligible or unsupported costs in one eligible
property.




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 14
Appendix 4
Management Response




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 15
Appendix 4
Management Response




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 16
Appendix 5
Major Contributors To This Report



Donna Joseph, Deputy Assistant Inspector General for Financial
    Management and Information Technology Audit
Erica Wardley, Audit Manager
Colleen McElwee, Audit Manager
James Hodge, Auditor-in-Charge
Nicholas Slonka, Auditor
Shaneasha Edwards, Referencer




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 17
Appendix 6
Report Distribution



Department of the Treasury

   Assistant Secretary for Management of the Treasury,
      Chief Financial Officer and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Assistant Secretary, Fiscal Operations and Policy
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

MSL Development LLC

   Manager




Audit of MSL Development LLC Payments Under 1603 Program (OIG-14-039)   Page 18
THIS PAGE INTENTIONALLY LEFT BLANK
